        U.S. Department of Energy
        Office of Inspector General
        Office of Audit Services




Special Report
Resolution of Questioned, Unresolved
and Potentially Unallowable Costs
Incurred in Support of the Yucca
Mountain Project




OAS-SR-10-02                          JULY 2010
                                  Department of Energy
                                    Washington, DC 20585
                                          July 29, 2010


MEMORANDUM FOR THE UNDER SECRETARY OF ENERGY

FROM:                    Gregory H. Friedman
                         Inspector General
SUBJECT:                 INFORMATION: "Resolution of Questioned, Unresolved and
                         Potentially Unallowable Costs Incurred in Support of the Yucca
                         Mountain Project"


INTRODUCTION

The Nuclear Waste Policy Act Amendments of 1987 designated Yucca Mountain in
Southwestern Nevada as the site for a national geologic repository for high-level nuclear waste.
The Department of Energy assigned management of the program to the Office of Civilian
Nuclear Waste Management (OCRWM). Bechtel SAIC Company, LLC (BSC) was the
management and operating contractor for OCRWM's Yucca Mountain Project from April 1,
2001, until its contract with the Department ended on March 31, 2009. In early 2009, the
Department indicated that it intended to terminate the Project and is moving to shut down all
activities by September 30, 2010.

In recognition of the very ambitious schedule for shutting down the Project, the Office of
Inspector General (OIG) issued a report on the "Need for Enhanced Surveillance During the
Yucca Mountain Project Shut Down" (OAS-SR-10-01, July 21, 2010). In that report, we
identified lessons learned from a number of previous Department activities with attributes and
characteristics similar to those that would be encountered during the Yucca Mountain Project
shut down. One key point in that report related to protecting the interest of the ratepayers and
taxpayers by employing a robust contract close out process. We indicated that the OIG would be
issuing a separate report questioning Project contractor-incurred costs that the Department needs
to address during the contract close-out process to ensure that disallowed costs are settled and
funds recouped; required audits of costs incurred are completed; and, that all excess funds are de-
obligated.

Today, we issued a separate contract audit report on "Audit Coverage of Cost Allowability for
Bechtel SAIC Company LLC During Fiscal Years 2004 Through 2009 Under Department of
Energy Contract No. DE-AC28-01-RW12101" (OAS-V-10-15, July 2010). This report identified
specific costs questioned in the contract audit report that will need to be resolved as part of the
Yucca Mountain Project shut down and contract close-out.

QUESTIONED or UNRESOLVED COSTS

We identified over $175 million in questioned and unresolved costs claimed by BSC during
Fiscal Years (FY) 2001 through 2009. Specifically,
       $19,024,410 in questioned costs that had been identified in audits and reviews and had
       not been resolved; and,

       $159,955,538 in subcontract costs that we consider to be unresolved because necessary
       audits had not been requested or performed.

                                        Questioned Costs

The Department has not resolved $18,793,992 in costs questioned by BSC's own internal audit
function. These costs, some of which were discovered as early as 2002, include:

        Subcontract costs totaling $340,000 for unsupported costs, time charged while traveling,
        unallowable per diem expenses and mathematical errors discussed in the FY 2002
        Allowable Cost Audit;

        Subcontract costs totaling $84,680 for unsupported labor charges and travel expenses
        identified during the FY 2003 Allowable Cost Audit;

        A total of $762,000 in subcontract costs identified by BSC Internal Auditors in their
        FY 2004 Allowable Cost Audit. Specifically, the amount questioned included $749,000
        for subcontract costs that did not have supporting documentation, and $13,000 for
        unsupported time charged by subcontractor employees while traveling;

        Unsupported labor and travel costs, calculation errors and double billing totaling
        $1,337,754 questioned in the FY 2005 Allowable Cost Audit;

        Unsupported labor and travel costs, payment errors for rent and furniture and duplicate
        billings of $310,500 identified in the FY 2006 Allowable Cost Audit;

        Unsupported labor and travel costs and time charged while traveling totaling $13,500
        identified in the FY 2007 Allowable Cost Audit;

        Payments without supporting documentation and unsupported labor charges totaling
        $6,027 questioned in the FY 2008 Allowable Cost Audit; and,

        $15,939,531 in unsupported costs identified in the FY 2009 Allowable Cost Audit that
        included payments to Department of Energy national laboratories, BSC's parent
        company, and an array of suppliers and vendors; unsupported relocation costs;
        automobile lease payments due to types of vehicles leased; undocumented rates used for
        calculation of relocation income tax allowances; shipment and storage costs of
        household goods in excess of the allowable amount; and, costs of an employee's
        apartment lease cancellation fee.

Based on testing performed by the OIG during the current audit, we identified and questioned an
additional $207,207 in subcontract costs, $14,185 in relocation costs and $35,652 in costs which
BSC failed to recover from two employees who were not entitled to relocation benefits since


                                                2
they failed to remain employed for the required period of time. These additional costs will also
need to be resolved during the contract close-out process.

                                Unresolved Subcontractor Costs

BSC had neither audited nor arranged for audit of nearly $160 million in subcontractor costs that
remain unresolved until audited. BSC was required by its contract with the Department to either
conduct an audit of subcontractor costs or arrange for such an audit to be performed by the
cognizant government audit agency.

Finally, we identified at least 23 subcontracts for FYs 2004 through 2009 for which we could not
obtain evidence that BSC had requested DCAA audits through the Department's OCRWM
contracting officer. There also was no documentation to show that BSC had requested audits of
the direct and indirect rates charged on two subcontracts for FY 2004, FY 2005 or FY 2006.
Therefore, we reported subcontractor costs totaling $77,367,089 as unresolved costs pending
audit.

                               Continuing Concerns/Path Forward

Our concern with contractor/subcontractor incurred costs issues at OCRWM is not new. In a
2005 OIG audit report on Assessment of Changes to the Internal Control Structure and their
Impact of the Allowability of Cost claimed by and Reimbursed to Bechtel SAIC Company, LLC
(OAS-V-05-03, January 2005), we questioned subcontractor costs totaling $95,552,645 that had
not been audited. Of the total amount questioned, $82,588,449 had not been resolved. As we
understand it, the OCRWM contracting officer is waiting for the Defense Contract Audit Agency
(DCAA) to complete three audit reports and for BSC to provide additional information before
determining the allowability of the remaining questioned costs. We reported the $82,588,449 as
unresolved costs pending audit.

As noted, when aggregated, we identified over $175 million in questioned and unresolved costs
claimed by BSC from 2001 through 2009. A summary breakdown of these costs is presented in
Attachment 1 of this report. In our contract audit report on costs incurred by BSC from FY 2004
through 2009, we recommended that the Acting Principal Deputy Director, Office of Civilian
Radioactive Waste Management, direct the Contracting Officer to take action to resolve these
costs by:

    1. Ensuring that subcontractor costs were audited as required in the contract; and,

    2. Making determinations regarding the allowability of questioned costs identified in this
       report and recover those costs determined to be unallowable.

Management concurred with the recommendations in the report but could not provide an
estimated closure date for the corrective actions since it is contingent upon DCAA's audit
response time. In connection with our 2010 audit, OCRWM indicated that it is in the process of
reviewing the:




                                                3
       Subcontracts which the OIG identified as requiring an audit. OCRWM committed to
        requesting the appropriate audit for those subcontracts for which it determines an
        incurred cost audit or close-out audit is required.

       Questioned costs identified in the report in order for the Contracting Officer to make a
        determination of allowability for those costs. OCRWM indicated that, for those costs
        that are determined to be unallowable, a Contracting Officer determination letter will be
        sent to BSC requesting reimbursement for those costs.

Management's comments are attached.

The Department has placed closure of the Office of Civilian Radioactive Waste Management on
an expedited fast track. As such, we request that management inform us as to the program
element and management official to be charged with resolving the issues identified in this report.

cc: Chief of Staff
    Acting Principal Deputy Director, Office of Civilian Radioactive Waste Management
    Director, Office of Legacy Management
    Manager, Oak Ridge Office

Attachments




                                                4
                                                                                                                 Attachment 1



                Summary of Questioned Costs and Unresolved Subcontract Costs Pending
                                               Audit
                                   Bechtel SAIC Company, LLC
                                Contract No. DE-AC28-01RW12101
                              October 1, 2000 through March 31, 2009

                        FY               FY             FY             FY               FY             FY                FY         Total
                     2001-2003          2004           2005           2006             2007           2008              2009

Relocation Costs                          $4,263         $1,212                         $35,652         $5,367           $3,343       $49,837

Subcontract Costs                          1,404         11,328           62,289                                        132,186       207,207

Unresolved Costs1      $424,6802         762,000      1,337,754        310,500           13,500          6,027     15,939531        18,793,992

Errors3                                                 (6,346)        (20,280)                                                       (26,626)

Total Questioned        $424,680         $767,667     $1,343,948       $352,509         $49,152        $11,394      $16,075,060 $19,024,410
Costs after
Adjustments for
Errors

Unresolved
Subcontract Costs
Pending Audit         $82,588,449 $20,884,651       $16,901,161 $19,575,313         $14,939,404    $4,049,119      $1,017,441     $159,955,538




            1
              Unresolved costs include costs questioned by Internal Audit in prior audits but have not been resolved.
            2
              These costs were questioned by Internal Audit prior to the scope of our audit but remained unresolved.
            3
              Errors are understatement (overstatement) of costs questioned by Internal Audit.


                                                                      5
                             Department of Energy
                                  Washington, DC 20585

                                        June 1,2010



MEMORANDUM FOR DA VID SEDILLO, DIRECTOR 

               NNSA AND SCIENCE AUDITS DIVISION
               OFFICE OF INSPECTOR GENERAL

FROM:                    DA
                         AC
                          OF"'<T)o,~('i-,
                                    CIVILIAN RADIOACTIVE
                             WASTE MANAGEMENT

SUBJECT:                 Comments on Inspector General Draft Report on "Audit
                         Coverage of Cost Allowability for Bechtel SAIC Company,
                         LLC During Fiscal Years 2004 through 2009 Under Contract
                         No. DE-AC28-01RW12101"


The purpose of this memorandum is to provide the Office of Civilian Radioactive Waste 

Management's response to the identified recommendations in the subject draft report. 


We appreciate the opportunity to comment on the draft report. If you have any questions, 

please contact Kenneth Powers of my staff at 702-794-1301. 


Attachment: 

Responses to Recommendations 





                                 *
    Printed wrth soy ink on recycled paper
              Responses to Recommendations in Draft Audit Report 

  "Audit Coverage of Cost Allowability for Bechtel SAIC Company, LLC During 

   Fiscal Years 2004 through 2009 Under Contract No. DE-AC28-01RWl2101" 



RECOMMENDAnONS

We recommend the Acting Principal Deputy Director, Office of Civilian Radioactive
Waste Management, direct the Contracting Officer to:

RECOMMENDATION 1

Ensure that subcontractor costs are audited as required in the contract.

MANAGEMENT DECISION

Concur. The Office of Civilian Radioactive Waste Management (OCRWM) is in the
process of reviewing those subcontracts for which the Office of Inspector General
identified as requiring an audit. For those subcontracts for which OCRWM determines
an incurred cost audit or close-out audit is required, then OCRWM will request the
appropriate audit.

Estimated date of closure: Contingent upon the Defense Contract Audit Agencies'
(DCAA) response time.


RECOMMEND A nON 2

Make determinations regarding the allowability of questioned costs identified in this
report and recover those costs determined to be unallowable.

MANAGEMENT DECISION

Concur. The Office of Civilian Radioactive Waste Management is in the process of
reviewing the questioned costs identified in the report in order for the Contracting Officer
to make a determination of allowability for those costs. For those costs that are
determined to be unallowable, a Contracting Officer determination letter with be sent to
Bechtel requesting reimbursement of those costs.

Estimated date of closure: Contingent upon receipt of DCAA audit response.
                                                          IG Report No. OAS-SR-10-02

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of
its products. We wish to make our reports as responsive as possible to our customers'
requirements, and, therefore, ask that you consider sharing your thoughts with us. On the
back of this form, you may suggest improvements to enhance the effectiveness of future
reports. Please include answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding
   this report?

2. What additional information related to findings and recommendations could have
   been included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's
   overall message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the
   issues discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should
   we have any questions about your comments.


Name                                          Date

Telephone                                     Organization

When you have completed this form, you may telefax it to the Office of Inspector
General at (202) 586-0948, or you may mail it to:
                           Office of Inspector General (IG-1)
                                 Department of Energy
                                Washington, DC 20585

                              ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Felicia Jones at (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly
and cost effective as possible. Therefore, this report will be available electronically through the
                                Internet at the following address:

              U.S. Department of Energy Office of Inspector General Home Page
                                  http://www.ig.energy.gov

  Your comments would be appreciated and can be provided on the Customer Response Form.
